         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       Overcoming Obstacles to
       Measuring Compliance: Practices
       in Selected Federal Agencies
       Report No. 2007-P-00027

       June 20, 2007
Report Contributors:	                Manju Gupta
                                     Jeffrey Harris
                                     Jeffrey S. Hart
                                     Danielle Tesch




Abbreviations

APHIS         Animal and Plant Health Inspection Service
AQIM          Agricultural Quarantine Inspection Monitoring
BLS           Bureau of Labor Statistics
CFR           Code of Federal Regulations
DOL           Department of Labor
DOT           Department of Transportation
EPA           U.S. Environmental Protection Agency
ESA           Employment Standards Administration
FMCSA         Federal Motor Carrier Safety Administration
GAO           Government Accountability Office
GPRA          Government Performance and Results Act of 1993
HHS           Department of Health and Human Services
ICR           Information Collection Request
ISS-2         Inspection Selection System
MCMIS         Motor Carrier Management Information System
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of Inspector General
OMB           Office of Management and Budget
OSHA          Occupational Safety and Health Administration
SAMHSA        Substance Abuse and Mental Health Services Administration
SafeStat      Motor Carrier Safety Status Measurement System
USDA          United States Department of Agriculture
WHD           Wage and Hour Division




Cover illustration:   Various examples of graphs 

                      (Source: National Center for Education Statistics) 

                       U.S. Environmental Protection Agency                                              2007-P-00027

                                                                                                         June 20, 2007

                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review           Overcoming Obstacles to Measuring Compliance:
                                 Practices in Selected Federal Agencies
The objective of this review
was to collect successful         What We Found
practices from Federal
agencies similar to the          Federal regulatory agencies with missions and obstacles similar to EPA use
U.S. Environmental Protection
                                 statistical methods to generate compliance information. They use this information
Agency's (EPA's) Office of
Enforcement and Compliance       to monitor their enforcement and compliance programs and demonstrate program
Assurance (OECA) that            results. These Federal programs extensively use statistical methods to identify and
extensively use statistical      analyze risk, set goals, develop strategies to manage the most significant risks, and
methods, including random        report their accomplishments. While the programs we reviewed face similar
sampling, to measure and         obstacles as OECA, they use practical approaches to overcome these obstacles that
ensure compliance and to         OECA could potentially apply to its programs.
monitor regulatory programs.
                                 Other programs apply statistical methods, such as selective random inspections, to
Background                       develop and publish compliance and other rates for their regulated populations.
                                 Some programs collect data through national surveys, while others require States
OECA faces many obstacles        to submit data as a condition of grant agreements. Programs leverage resources by
in measuring compliance          working with statisticians from other offices within their agencies, as well as with
across its regulated universe.   statisticians from universities and external research centers. Programs found that
These include limited            having a champion in senior management within their agency is essential to
knowledge of its large           overcome resistance to change and to adopt new methods.
universe, limited resources,
and difficulties in collecting   Programs do not use statistical methods solely for reporting compliance rates.
data from States through         Programs reported that other benefits include identifying previously unknown
random inspections and other     risks, quantifying results, verifying the effectiveness of targeting schemes, and
means. These obstacles have      maximizing limited resources.
prevented OECA from
calculating compliance rates
for the populations within its    What We Recommend
regulated universe and from
demonstrating changes in         We recommend that the Assistant Administrator for Enforcement and Compliance
compliance and trends.           Assurance establish a plan of action, with milestones, to incorporate using
                                 statistical methods to demonstrate the results of EPA's enforcement and
For further information,         compliance strategies. In addition, OECA can coordinate with the in-house
contact our Office of            statistical expertise available in EPA's Office of Research and Development and
Congressional and Public         Office of Environmental Information to help develop statistical models and
Liaison at (202) 566-2391.       evaluate external proposals. The Agency accepted our recommendations.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070620-2007-P-00027.pdf
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                            WASHINGTON, D.C. 20460



                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                           June 20, 2007

MEMORANDUM

SUBJECT:       Overcoming Obstacles to Measuring Compliance:
               Practices in Selected Federal Agencies
               Report No. 2007-P-00027


FROM:	         Wade T. Najjum
               Assistant Inspector General, Office of Program Evaluation

TO: 	          Granta Y. Nakayama
               Assistant Administrator, Office of Enforcement and Compliance Assurance


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
EPA managers will make final determinations on matters in this report in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project's staff days by the
applicable daily full cost billing rates in effect at the time – is $440,022.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at (202) 566-0832 or
najjum.wade@epa.gov; or Jeffrey Harris, Director for Program Evaluation, Cross-Media Issues,
at (202) 566-0831 or harris.jeffrey@epa.gov.
                           Overcoming Obstacles to Measuring Compliance:

                                Practices in Selected Federal Agencies 




                                Table of Contents 


Chapters
 1    Introduction ..........................................................................................................      1


              Purpose .........................................................................................................    1         

              Background ...................................................................................................       1         

              Scope and Methodology ................................................................................               3


 2    How Federal Agencies Similar to OECA Measure Compliance Programs .....                                                       4


              Other Federal Regulatory Programs with Missions Similar to OECA ............                                         4

              OECA's Obstacles to Developing Compliance Rates ...................................                                  5

              Practices Other Federal Regulatory Programs Use to Overcome 

                 Similar Obstacles ......................................................................................          6

                    Using External Sources to Supplement Limited Knowledge of
                       Regulated Universe ........................................................................                 7

                    Collaborating to Overcome Resource Limitations ...............................                                 8

                    Demonstrating Benefits of Statistical Methodologies to 

                       Overcome Resistance ....................................................................                   10 

                    Using Grants, ICRs, and Contractors to Collect Data from States ......                                        11 

              Conclusion .....................................................................................................    12         

              Recommendations ........................................................................................            13         

              Agency Comments and OIG Evaluation ........................................................                         13 


 Status of Recommendations and Potential Monetary Benefits ................................                                       15     




Appendices
 A    Details on Scope and Methodology ....................................................................                       16     


 B    Federal Regulatory Agency Programs Reviewed by OIG..................................                                        18


 C    Selected Sources .................................................................................................          27     


 D    Agency Response ................................................................................................            29     


 E    Distribution ...........................................................................................................    31     

                                             Chapter 1
                                             Introduction
Purpose
                  The objective of this review was to collect successful practices from agencies
                  similar to the U.S. Environmental Protection Agency's (EPA's) Office of
                  Enforcement and Compliance Assurance (OECA) that extensively use statistical
                  methods to measure, monitor, and report compliance levels. Specifically, we
                  sought to answer the following questions:

                  •	   How have other Federal agencies used statistical methods to measure and
                       ensure compliance?
                  •	   How did these other Federal agencies overcome the obstacles OECA currently
                       faces to using statistical methods to measure compliance?

Background
                  OECA shares regulatory responsibilities with EPA regions and States. EPA's
                  expenditures associated with improving compliance were $435 million,
                  $437 million, and $489 million in fiscal years 2004, 2005, and 2006, respectively.
                  OECA uses these funds for a variety of program activities, including categorical
                  grants, civil and criminal enforcement, compliance incentives, and compliance
                  monitoring.

                  Two recent Office of Inspector General (OIG) reports1 found that OECA could
                  not demonstrate changes in compliance levels of the diverse populations within its
                  regulated universe,2 and that OECA's publicly reported performance measures in
                  fiscal year 2005 did not effectively characterize changes in compliance or other
                  outcomes. OECA did not have current and complete data on either the regulated
                  entities or changes in their compliance status. Also, OECA primarily reported
                  completed activities (known as outputs or activity counts) rather than the results
                  of the completed activities (known as outcomes). For example, OECA reported
                  on the performance measure Number of inspections/evaluations conducted by
                  EPA, but it could not determine the true state of compliance across programs in
                  the regulated universe.

                  According to OECA, EPA and States do not have the resources to inspect every
                  regulated entity for compliance with environmental statutes. States principally
                  conduct targeted inspections at sites where they expect to find a violation

1
  EPA OIG Report No. 2005-P-00024, Limited Knowledge of the Universe of Regulated Entities Impedes EPA’s
Ability to Demonstrate Changes in Regulatory Compliance, September 19, 2005; and EPA OIG Report No.
2006-P-00006, EPA Performance Measures Do Not Effectively Track Compliance Outcomes, December 15, 2005.
2
  The term universe refers to the total number of facilities or entities subject to Federal statutes or regulations.


                                                          1

                 (facilities with a history of noncompliance). Compliance rates based solely on
                 targeted inspections are biased and are likely not representative of the overall
                 compliance in the regulated sector.

                 In contrast, compliance information derived from inspections based on random
                 samples can help analyze the regulated community's overall compliance. Over
                 time, this type of compliance information can also show trends and changes in
                 noncompliance, which can help OECA identify emerging compliance problems
                 that harm human health and the environment. Such data are central to making
                 sound management decisions about strategic planning and resource allocation for
                 regulatory programs.

                 The Office of Management and Budget (OMB) has directed OECA to develop
                 performance metrics that measure compliance results, including statistically valid
                 compliance rates based on random samples of regulated entities. At a minimum,
                 OMB would like to see OECA make meaningful progress in expanding the use of
                 statistical methods. OECA conducted several pilot studies between 2000 and
                 2004 to generate compliance rates for certain industries (e.g., petroleum refining,
                 iron and steel manufacturing, and organic chemical manufacturing) and specific
                 segments of regulated populations (e.g., combined sewer municipalities). OECA
                 has not widely used compliance rates because of budget shortfalls and other
                 resource, policy, and methodology obstacles.

                 In a September 2004 memorandum, OECA cited several obstacles to developing
                 statistical methodologies that are applicable to larger segments of its regulated
                 universe. OECA indicated in this memorandum that it:

                 •	   has limited knowledge about its large regulated universe;
                 •	   lacks in-house statistical expertise to develop statistical methods and resources
                      to conduct nationwide inspections;
                 •	   experiences resistance from States to random inspections; and
                 •	   experiences challenges coordinating data collection from States.

                 We discuss OECA's obstacles and practices of other Federal regulatory programs
                 that address these obstacles in detail in Chapter 2.

                 In the 2006-2011 EPA Strategic Plan, OECA states that it plans to develop
                 statistically valid noncompliance rates3 for key populations within its national
                 enforcement priority areas.4


3
  OECA defines statistically valid noncompliance rates as an estimate of the noncompliance for the entire
population of regulated entities from a moderate-sized sample of inspections.
4
  OECA's national enforcement and compliance assurance program is responsible for maximizing compliance with
10 distinct Federal environmental statutes dealing with preventing and controlling air pollution, water pollution,
hazardous waste, toxic substances, and pesticides. OECA organizes its work in two components: a limited number
of national priorities that focus on significant environmental risks and noncompliance patterns, and core program
activities that implement the requirements of all environmental laws and programs.


                                                         2

Scope and Methodology
         OECA requested our assistance in developing statistically valid compliance rate
         methodologies for larger segments of its regulated universe. During preliminary
         research, we searched for compliance rates that States and other Federal agencies
         have calculated and reported. After preliminary analyses, we decided to focus
         only on Federal agencies because they are subject to similar challenges and
         reporting requirements as OECA. After talking with OECA officials, we decided
         to limit the scope of our evaluation to identifying Federal regulatory agencies that
         use statistical methodologies for implementing nationwide compliance monitoring
         and reporting. We conducted field work from June 2006 through August 2006,
         and performed our evaluation in accordance with Government Auditing
         Standards, issued by the Comptroller General of the United States.

         We reviewed documents and interviewed program managers from selected health
         and safety compliance offices. While we initially identified more than five
         Federal agencies during preliminary research, we judgmentally limited our review
         to five programs that used statistical sampling methods to determine compliance
         levels, published compliance rates, and used the rates to manage their programs,
         and interviewed program managers from these programs (see Table 2-1 in
         Chapter 2).

         We also reviewed documents provided by program managers in response to our
         questions. We analyzed information from the interviews and documents to
         identify practices that would be relevant and useful to OECA. We discuss these
         relevant practices in more detail in Chapter 2.

         Appendix A provides more details on our scope and methodology, including the
         criteria used for selecting Federal agencies and the specific topics we discussed
         during the interviews. Appendices B and C provide detailed information about
         each program and selected bibliographic sources related to their programs,
         respectively.

         Prior evaluations addressing OECA compliance measurement include the two
         EPA OIG reports cited in footnote 1, which outline OECA's difficulties in
         quantifying its regulated universe and demonstrating program outcomes with its
         current performance measures.




                                          3

                                 Chapter 2
         How Federal Agencies Similar to OECA
            Measure Compliance Programs

          Federal regulatory agencies that have similar missions and obstacles as OECA use
          statistical methods to generate compliance information. They use these methods
          to monitor their enforcement and compliance programs and demonstrate program
          results. Each Federal program regulates a large nationwide universe composed of
          diverse populations. Programs are subject to Federal budgetary constraints and
          share enforcement responsibilities with States and regions.

Other Federal Regulatory Programs with Missions Similar to OECA
          OECA is responsible for enforcing compliance with regulations that support
          EPA's mission of protecting human health and the environment. To ensure
          compliance with environmental regulations, OECA conducts enforcement
          activities such as criminal and civil enforcement, compliance monitoring,
          compliance assistance, and providing compliance incentives. OECA monitors
          compliance by collecting information from States and regulated entities, as well
          as through inspections.

          OECA and these other regulatory agency programs are subject to the Government
          Performance and Results Act (GPRA) of 1993, which requires Federal agencies to
          develop strategic plans, performance goals, performance measures, and report
          performance results. Federal agencies also submit their annual goals and report
          the outcomes of their program activities to OMB, emphasizing how program
          activities contribute to achieving performance goals.

          We reviewed five Federal regulatory programs from four agencies with missions
          similar to EPA, e.g., protecting human health and/or safety, and safeguarding
          natural resources (see Table 2-1). Most programs we reviewed began
          incorporating statistical methods into their regulatory processes to report results in
          response to requirements of GPRA. Detailed descriptions of these programs are
          in Appendix B.




                                            4

         Table 2-1: Program Missions of the Five Federal Regulatory Agencies Reviewed


          Agency – Program                         Program Mission
          United States Department of              Safeguard agriculture and natural resources
          Agriculture (USDA), Animal and Plant     from risks associated with the entry,
          Health Inspection Service (APHIS)        establishment, or spread of animal and plant
                                                   pests and noxious weeds to ensure an
                                                   abundant, high-quality, and varied food supply.
          Department of Labor (DOL),               Assure the safety and health of America's
          Occupational Safety and Health           workers by setting and enforcing standards;
          Administration (OSHA)                    providing training, outreach, and education;
                                                   establishing partnerships; and encouraging
                                                   continual improvement in workplace safety and
                                                   health.
          DOL, Employment Standards                Administer and enforce several Federal labor
          Administration (ESA), Wage and           laws, including minimum wage, overtime pay,
          Hour Division (WHD)                      recordkeeping, and child labor requirements of
                                                   the Fair Labor Standards Act.
          Department of Transportation (DOT),      Reduce crashes, injuries, and fatalities involving
          Federal Motor Carrier Safety             large trucks and buses.
          Administration (FMCSA)
          Department of Health and Human        Build resilience and facilitate recovery for
          Services (HHS), Substance Abuse and people with or at risk for substance abuse and
          Mental Health Services Administration mental illness.
          (SAMHSA)

         Source: OIG summary of selected agency Websites and source material


OECA's Obstacles to Developing Compliance Rates
         OECA identified several obstacles that inhibit its ability to measure and
         demonstrate changes in compliance. Some of the reasons OECA provides for not
         developing programmatic compliance rates are:

         •	   OECA has limited knowledge of its large regulated universe, so it is difficult
              to select an accurate sample and develop a valid compliance rate;
         •	   OECA finds national inspection-based rates for large populations cost
              prohibitive given its limited resources;
         •	   OECA lacks internal statistical resources and expertise to develop sampling
              plans, identify sample sizes, and analyze results;
         •	   States resist random inspections because they believe random inspections are
              not as effective as targeted inspections;
         •	   OMB requires Federal agencies to file an Information Collection Request
              (ICR) to collect nationwide information from States, which delays and
              complicates collecting data from States; and
         •	   Differences between EPA and State planning cycles make it difficult to
              schedule and complete the inspections needed for national compliance
              statistics.



                                              5

Practices Other Federal Regulatory Programs Use to Overcome
Similar Obstacles
          The Federal regulatory programs we selected faced similar obstacles as OECA
          (see Table 2-2). Agencies, and States with delegated regulatory responsibilities,
          have integrated statistical methods into all phases of their program
          implementation and do not focus solely on producing and reporting compliance
          rates for individual projects. They use statistical models to stratify their large
          universes into risk groups and to evaluate the success of their targeting strategies.
          They selectively use random sampling to identify risks and to demonstrate
          program results.

          Table 2-2: Other Federal Regulatory Agencies Have Faced Similar Obstacles


              OECA's Obstacles             Did the Federal Regulatory Agency Face a Similar
                                                              Obstacle?
                                          APHIS        OSHA          WHD        FMCSA       SAMHSA
              Limited Knowledge of          Yes         Yes          Yes          Yes          Yes
              Large Regulated
              Universe
              Limited Resources
                • Inspection Resources      Yes         Yes          Yes          Yes          Yes
                • Statistical Resources     Yes         Yes          Yes          Yes          Yes
              States' Resistance to        N/A a        Yes          N/A a        Yes          Yes
              Random Inspections
              Data Collection from
              States
                • OMB Information           Yes         Yes          Yes          Yes          Yes
                  Collection Request
                  (ICR) Restrictions
                • Differences between       N/A         No b         N/A          No b         No b
                  EPA and State
                  Planning Cycles
          a
            Federal agents conduct all of the inspections for APHIS and WHD. However, these programs
          also had to overcome resistance to including random inspections from management and agents.
          b
            OHSA, FMCSA, and SAMHSA did not mention planning cycles as challenges to collecting data
          from States.

          Source: OIG analysis of interviews with APHIS, OSHA, WHD, FMCSA, and SAMHSA

          While we have not evaluated the validity of the statistical methods used by the
          other regulatory programs, the Government Accountability Office (GAO), OMB,
          and other external evaluators have reviewed these compliance programs and
          methods; they have taken no exceptions to using these statistical methods.

          We discuss the practices the programs use to overcome obstacles cited by OECA
          (see Table 2-3 and following sections). We provide additional details about each




                                               6

of the programs we reviewed in Appendix B. We also list selected sources for
each of these programs in Appendix C.

Table 2-3: Summary of Practices Used by Other Regulatory Agencies to
Overcome OECA's Cited Obstacles


        OECA's Obstacles                     How Other Agencies Overcame Similar
                                                         Obstacles
 Limited Knowledge of Large              • Supplemented knowledge of the regulated
 Regulated Universe                        universe from external sources
 Limited Resources: Inspection           • Collaborated with States in sharing inspections
 Resources and Statistical                 responsibilities
 Resources                               • Collaborated with statistical resources in other
                                           parts of the agency, as well as external sources
                                           for statistical expertise
 States' Resistance to Random            • Demonstrated additional benefits of statistical
 Inspections                               methodologies to overcome resistance
                                         • Obtained support and a champion at agency
                                           leadership level
 Data Collection from States: OMB        • Collected data from States through grants,
 ICR Restrictions and Differences          ICRs, and contractors
 in EPA and State Planning               • None of the agencies mentioned differences in
 Cycles                                    planning cycles as a barrier to collecting data
                                           from States

Source: OIG analysis of interviews with APHIS, OSHA, WHD, FMCSA, and SAMHSA

Using External Sources to Supplement Limited Knowledge of
Regulated Universe

Similar to OECA, the agencies we reviewed each regulates a large universe.
Because these programs also regulate large numbers of industries and facilities
that constantly change in size, the exact size of their universe is often unknown.
They supplement knowledge of their universe by obtaining information from
other parts of their agencies, as well as from States that share enforcement and
compliance responsibilities, and other available reliable databases. Some
agencies require this information from States as part of grant agreements. Some
agencies use outside sources (e.g., Dun & Bradstreet) and external contractors
(e.g., universities and research groups) to survey their regulated universe and
develop a compliance baseline for each universe.

•	   OSHA uses DOL's Bureau of Labor Statistics (BLS) database, as well as
     Dun & Bradstreet, for information on its regulated universe. OSHA's universe
     consists of approximately 7 million private workplaces in the United States.
     OSHA sends out an annual survey to 80,000-100,000 work sites along with
     BLS' annual survey to collect site-specific information. The survey helps
     OSHA identify establishments that have a higher likelihood of noncompliance.



                                    7

     Every year OSHA submits an ICR to OMB to collect site-specific injury and
     illness data from regulated entities. OSHA uses its administrative
     recordkeeping rule as justification for OMB's approval of its ICR.

•	   FMCSA has information on most of its regulated universe of large trucking
     and carrier companies because Federal regulations require every interstate
     trucking company to obtain a DOT registration number. Approximately half
     of States' motor vehicles departments require a DOT registration number
     before issuing license plates to large trucks or carriers.

•	   SAMHSA identifies its universe of retail establishments selling tobacco
     products by requiring States to prepare lists of such retailers. SAMHSA
     requires this information as part of its grants to States for program
     implementation.

•	   APHIS collaborates with the Bureau of Customs and Border Protection to
     identify its universe of passengers and cargo entering the United States.
     APHIS also collaborates with field office staff to help identify all possible
     pathways and their respective sources of risk. APHIS defines pathway as a
     route through which agricultural risks enter into the United States, e.g., air
     carriers, trucks, cars, and ships.

•	   WHD uses several sources to identify the variety of populations within its
     universe that are subject to the Federal Fair Labor Standards Act regulations.
     WHD uses data from BLS, State licensing offices, and commercial databases,
     including Dun & Bradstreet, for conducting statistically valid, investigation-
     based compliance surveys to determine industry compliance rates.

Collaborating to Overcome Resource Limitations

Similar to OECA, the other Federal programs we reviewed have resource
limitations, in terms of their Federal budgets, staff, and in-house statistical
expertise. However, these agencies leverage their resources through collaboration
with their State partners and other stakeholders to develop statistically valid
compliance information. Four of the programs use statistical expertise found in
other parts of their agencies, e.g., other programs within their agency, field
offices, and research centers. Three programs also use external statisticians from
universities and independent research centers.

•	   FMCSA provides current monthly compliance and safety data on its Website.
     It requires States to input inspection data into FMCSA's Motor Carrier
     Management Information System (MCMIS) database as a condition of the
     grants it provides to States. All States provide the data in accordance with
     uniform data standards for crash and accident data. FMCSA developed these
     standards in collaboration with the National Governors' Association and the
     Commercial Vehicle Safety Alliance. States conduct the majority of roadside



                                   8

     inspections and submit inspection data. FMCSA has also trained some State
     agents to conduct compliance reviews. FMCSA uses the statistical expertise
     of DOT's John A. Volpe Research Center for statistical models and data
     analyses.

•	   APHIS collaborated with the former U.S. Customs Service to develop and test
     the initial Agriculture Quarantine and Inspection Monitoring (AQIM)
     methodology. APHIS uses the statistical resources of the USDA National
     Agriculture Statistical Services to review agriculture inspection data. APHIS
     also works with its field personnel to enumerate risks to agricultural and
     natural resources from each pathway. Federal inspectors conduct all regularly
     scheduled and additional random inspections associated with AQIM activities.

•	   OSHA uses the resources of statisticians from BLS, in addition to the
     occupational injury and illness data submitted to BLS by regulated
     establishments. Further, with a few exceptions, OSHA uses its limited
     inspection resources to inspect only in those States without State Plan
     certification. OSHA relinquishes its inspection authority to the States that
     receive certification. The Directorate of Cooperative and State Programs (a
     separate group within OSHA) oversees the State Plan States. It has delegated
     the authority for monitoring State Plan States to OSHA's 10 regional offices.
     Although States are not subject to GPRA, OSHA works collaboratively with
     States to develop State-specific multi-year and annual strategic plans. OSHA
     requires submission of these plans by States as a part of their annual
     applications for OSHA's State Plan grants.

•	   WHD uses its resources to enforce regulations under the Federal Fair Labor
     Standards Act, whereas States enforce their individual State labor laws.
     Federal inspectors conduct all Federal inspections. WHD uses the University
     of Tennessee's Construction Industry Research and Policy Center to analyze
     compliance data and provide other statistical services. WHD conducts
     national surveys to develop a baseline of compliance information for selected
     industries. WHD publishes these compliance rates by region and industry.

•	   SAMHSA provides inspection resources to States to conduct random
     inspections and develop lists of retailers selling tobacco. SAMHSA develops
     and provides training and statistical models to States. SAMHSA requires
     States to use approved protocols for sample selection. States submit
     compliance data as a condition of the annual grant. SAMHSA collaborates
     with other stakeholders such as retailers, community groups, and parents by
     providing training materials, encouraging alertness during State inspections,
     and encouraging accuracy in State reporting.

Collaboration with States, internal agency departments, other Federal agencies,
and external stakeholders helped the agencies we reviewed overcome multiple
resource limitations. The programs we reviewed emphasize the need for



                                  9

collaboration and cooperation with States in using uniform data standards and
inspections protocols. Collaboration with States can also leverage resources for
inspections. These programs also emphasize the need for collaboration with other
agency offices in developing statistical methods and analyzing data.

Within EPA, we identified statistical resources from the Office of Research and
Development and the Office of Environmental Information that can assist OECA
in developing statistical models and in evaluating methods proposed by external
statisticians.

Demonstrating Benefits of Statistical Methodologies to Overcome
Resistance

According to OECA, States resist changing their methodologies from targeting
facilities with known or suspected violations to including random selections of
facilities for inspections. States anticipate that some randomly selected sites may
not have violations, and that they use their limited resources more efficiently if
they go after facilities with known or suspected problems.

All the programs we reviewed encountered initial resistance to random
inspections from senior management, field staff, and/or States. Most programs
mentioned two significant factors that helped in overcoming the resistance:
(1) demonstrating the additional benefits of statistical methods, and (2) having a
champion in the agency leadership ranks.

The programs overcame resistance to random sampling by demonstrating
additional benefits of conducting random inspections. These benefits include
identifying previously unknown risks, verifying sources of risk, showing
differences in compliance among regions and industries, and quantifying program
results.

•	   OSHA, WHD, FMCSA, SAMHSA, and APHIS quantified risks to human
     health, safety, and agricultural resources by including statistical methods, such
     as additional random inspections, in the inspection process. WHD, FMCSA,
     and APHIS mentioned that they overcame resistance, and won management
     support for random inspections, by demonstrating that random inspections can
     verify known risks, identify unknown risks, demonstrate the status of
     compliance for the regulated universe, and identify regional or industry
     differences in compliance levels. Recognizing that differences exist between
     regions and industries allows programs to develop management solutions to
     improve compliance specific to regions or industries. They were better able to
     identify the regional nature of certain problems, to focus limited resources on
     areas that need the most compliance monitoring and assistance. For example,
     WHD initially focused limited resources on three industries with the largest
     number of low-wage workers and a high incidence of noncompliance with
     minimum wage and overtime regulations. For these industries, WHD



                                  10

     identified the causes of noncompliance and developed strategies to address
     differences in regional compliance rates.

•	   APHIS and WHD demonstrated to inspectors (who target entities based on
     past compliance history and professional judgment), that statistical methods
     can confirm their "gut feelings" or suspicions. APHIS and WHD also showed
     inspectors that statistical methods help quantify the improvements in local
     compliance levels resulting from their enforcement activities.

Championship and commitment from agency leaders also helped the agency
programs overcome the initial resistance to incorporating random inspections into
the inspection process. A champion in senior management can advocate using
statistical methods to States and other program offices, reallocate existing
resources for developing and implementing statistical methods, create
opportunities for collaboration with internal and external stakeholders, and
facilitate data collection efforts.

All five of these programs conduct randomly sampled inspections in conjunction
with complaint-based inspections and inspections of known noncompliers. The
programs mentioned that combining targeted inspections with randomly sampled
inspections helped them use limited enforcement resources more effectively. For
example, OSHA allocates 55 percent of its resources to conducting inspections
from statistical samples, and the other 45 percent to conducting inspections based
on complaints and prior knowledge of violations. All the programs generate the
rates that are most significant to meet their program mission and goals. They do
not develop compliance rates for all of the populations within their universe.
They develop a limited number of rates for populations that they select based on
risk assessment.

Programs we reviewed stress the need to set realistic goals when applying
statistical methods to populations within their large universes governed by
complex regulations. The programs initially conducted random samples or
national surveys on a few areas that had high risk, or widespread incidence of
noncompliance. After building national baselines, these agencies selected
additional industries or sectors for which to conduct random inspections and
surveys, and to develop statistically valid compliance rates. WHD found that
annual surveys do not allow sufficient time to analyze the results of surveys,
determine the causes for noncompliance, develop and implement interventions to
improve compliance. As a result, WHD changed its survey strategy to conduct
followup reviews in 5-year intervals.

Using Grants, ICRs, and Contractors to Collect Data from States

OECA needs the compliance data collected by States to create nationwide
compliance statistics. According to OECA, States conduct most of the
inspections at regulated facilities for EPA's delegated programs, but the applicable



                                 11

         statutes do not require States to submit data from all inspections to OECA. The
         data OCEA receives from States are also of an inconsistent quality. Specifically,
         OECA listed two obstacles related to collecting inspection and compliance data
         from States:

         •	   The need to file an ICR with OMB delays and complicates coordination with
              States; and
         •	   Differences in EPA and State planning cycles make it difficult to schedule and
              complete the inspections needed for a national compliance rate within a year.

         The agencies we reviewed had a number of ways of gathering the data needed to
         produce compliance rates.

         •	   OSHA uses an administrative record-keeping rule that justifies the need for
              OSHA to gather injury and accident data from establishments. OSHA submits
              an ICR to OMB annually to collect such site-specific data from regulated
              entities for managing its compliance program. OSHA also requires annual
              goals and performance reports from States as a part of the States’ grant
              applications. FMCSA and SAMHSA require States to submit data and/or
              compliance rates as part of grant agreements. WHD does not need an OMB-
              approved ICR to conduct investigation-based surveys because the statute
              authorizes WHD to conduct such investigations. WHD uses a university
              research center to conduct the surveys to collect and analyze data.

         •	   None of the agencies mentioned differences between Federal and State
              planning cycles as a challenge to scheduling or completing inspections needed
              for compliance statistics. These agencies emphasized that cooperation and
              collaboration with States and grant agreements are effective ways to obtain
              State compliance data.

         Using record-keeping rules, data-reporting requirements in grant agreements,
         ICRs, and outside contractors allows agencies to obtain the data needed for
         calculating rates (including compliance rates) that identify risks and demonstrate
         program outcomes. Agencies that collect data through grant agreements can also
         require that the data meet certain standards, which can help to build a reliable
         database. Most programs provide funding to States through grants to implement
         compliance and enforcement programs. They utilize the grants agreements as
         instruments to obtain compliance data from States.

Conclusion
         Based on our review of five comparable Federal regulatory programs, we believe
         that OECA can overcome its stated obstacles to develop statistical estimates of
         compliance. Other agencies have encountered similar obstacles, but have adopted
         statistical methods to manage and monitor their compliance programs. Use of
         random samples can assist OECA in risk assessment by identifying previously


                                          12

         unknown sources of risk, as well as help in evaluating the effectiveness of its
         inspections targeting. OECA can use the results of statistical methods to monitor
         and demonstrate the results of compliance and enforcement strategies.

         OECA needs to commit to a practical approach and develop a plan of action with
         milestones. OECA can begin by establishing a set of incremental goals for a few
         areas of high environmental risk. Steps can include updating the knowledge of
         the populations in its universe, developing statistical samples for the selected
         areas, collaborating with and overcoming resistance from States, developing tools
         to collect data from States (e.g., grant requirements, ICRs), and requiring reliable
         compliance data from States. OECA can obtain in-house statistical support from
         EPA's statisticians in the Office of Research and Development and the Office of
         Environmental Information in developing statistical models and evaluating
         methods proposed by external statisticians.

Recommendations
         We recommend that the Assistant Administrator for Enforcement and Compliance
         Assurance:

         2-1	   Establish a plan of action with milestones to incorporate using statistical
                methods to demonstrate the results of EPA's enforcement and compliance
                strategies.

         2-2	   Coordinate with the in-house statistical expertise available in EPA's Office
                of Research and Development and Office of Environmental Information to
                help develop statistical models and evaluate external proposals.

Agency Comments and OIG Evaluation
         OECA accepted both of our recommendations; we have included their comments
         in Appendix D. Based on OECA's comments, we made changes to the report as
         appropriate.

         In response to the first recommendation, OECA stated that it has committed to
         OMB to expanding the use of statistical methods for specific national priority and
         problem areas. OECA is currently conducting two related reviews in order to
         develop an action plan for OMB. The reviews relate to strategies for national
         priorities and problem areas for the fiscal years 2008-2010 planning cycle and
         revision of compliance objectives to focus on national priority and problem areas
         rather than on program tools. In response to the second recommendation, OECA
         agreed to examine the level of expertise and the types of services that EPA's in
         house statisticians from the Office of Research and Development and the Office
         of Environmental Information can provide.




                                          13

OECA's commitment to expand the use of statistical methods to focus on national
priority areas is an encouraging first step. We have provided examples of
approaches other agencies have taken to overcome similar difficulties as OECA
has faced. OECA can obtain more details from these sources and potentially
apply these approaches to its programs. OECA should incrementally develop a
strategy for expanding the use of statistical methods for management of the core
program activities where feasible. In OECA’s written response to this report, we
will be looking for (1) a Corrective Action Plan with milestones—potentially a
reiteration of actions previously committed to OMB, and (2) information
regarding the status of compliance in core program activities.




                               14

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1        Action Official             Date      Amount      Amount

    2-1       13    Establish a plan of action with milestones to          O       Assistant Administrator for
                    incorporate using statistical methods to                           Enforcement and
                    demonstrate the results of EPA's enforcement and                Compliance Assurance
                    compliance strategies.

    2-2       13    Coordinate with the in-house statistical expertise     O       Assistant Administrator for
                    available in EPA's Office of Research and                          Enforcement and
                    Development and Office of Environmental                         Compliance Assurance
                    Information to help develop statistical models and
                    evaluate external proposals.




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                               15

                                                                                      Appendix A

                   Details on Scope and Methodology

Criteria Used to Select Federal Regulatory Agencies
During preliminary research, we searched for compliance rates reported by State and Federal
agencies. We identified 18 States that reported compliance rates. We surveyed seven of these
States to determine if State agencies use statistical methods to measure compliance. We found
that few States use statistical methods for measuring compliance and therefore did not include
States in our evaluation. Additionally, we found that OECA was already collecting such
information from States. After talking with OECA officials, we limited the scope of the
evaluation to identifying successful practices from other Federal agencies.

While we initially identified more than five Federal agencies during preliminary research, we
used the following criteria to limit our scope to those Federal regulatory agencies or programs
that are most applicable to OECA's enforcement situation:

•	   The agency/program has regulatory responsibilities for enforcing/assuring compliance with
     statutes/regulations (can be within a single program area or multiple program areas);
•	   The agency/program has a mission related to human health, safety, or the environment;
•	   The agency/program has a large regulated universe;
•	   The agency/program has a national scope focused across States and/or regions;
•	   The agency/program uses (or has used) statistical sampling methods for determining
     compliance with statutes/regulations;
•	   The agency/program has developed/published compliance rates; and
•	   The agency/program uses compliance rates as an outcome measure to manage the
     agency/program.

We judgmentally selected five Federal regulatory agencies for further review (see Table 2-1).

Interviews with Program Managers
We interviewed program managers from five Federal agency programs to gain a better
understanding of the statistical methods they use, the purpose for which they use the methods,
and how they use statistics for measuring and reporting on compliance, including developing
compliance rates. We requested information on the following topics from all of the
agencies/programs:

•	   Background Information: Background on what initiated the need for developing
     statistically valid rates, knowledge of the composition and size of the regulated universe, and
     shared enforcement/ inspection responsibilities with States.
•	   Resources Used: Resources used in the development of the statistical methodology;
     statistical expertise used (in-house or external contractors); full-time equivalents, money,
     time, etc.; and resources needed to calculate the rate on a continuous basis.


                                                 16

•	   Description: Description of the methodology, data sources, and data quality.
•	   Benefits and Uses: How does the agency use the statistically valid rates, what benefits has
     the agency experienced using the methodology, and what lessons have been learned from
     using the methodology.
•	   Opportunity Costs: How does the agency balance the need for targeted sampling with the
     need for statistically valid sampling.
•	   External reviews (or related reports): Have the agency's methodologies been reviewed.

We also reviewed documents that the program managers provided in response to our questions.
We analyzed information from the interviews and documents to identify practices that would be
relevant and useful to OECA. We discuss these relevant practices in Chapter 2.

Analysis of Interview Responses
We prepared a table that compared interview responses for 17 variables among the five Federal
regulatory agencies we interviewed. We shared our analysis of interview responses with Federal
agencies and requested that they verify the information we are including in this report. This
information is available in Appendix B.

Scope Limitations
The purpose of this project was to focus on the statistical methods other regulatory agencies use
for monitoring and reporting compliance. We did not review the management controls of OECA
or the other agencies. We relied on information from interviews with program managers,
documents provided by the managers, and other resources available on the identified Federal
agencies' Websites. While we confirmed the accuracy of our information with each individual
agency, we did not independently verify this information or evaluate the validity of their selected
statistical methods. However, GAO, OMB, and other external evaluators have reviewed these
compliance programs and methods; they have taken no exceptions to the use of these statistical
methods.

As coordinated with OECA, we did not evaluate OECA's current methodology for developing
compliance rates; therefore, we also did not compare its methodology with methodologies from
other agencies. We selected regulatory agencies with missions related to human health, safety,
and the environment, but did not determine which statistical methods for measuring compliance
might be most suitable for OECA.




                                                17

                                                                                       Appendix B

               Federal Regulatory Agency Programs 

                         Reviewed by OIG 

We provide below brief descriptions of the Federal regulatory agency programs we reviewed.
Table B-1 provides more details on each program.

United States Department of Agriculture, 

Animal and Plant Health Inspection Service, Plant Protection and Quarantine 


APHIS calculates two compliance rates: the "actual" and the "predicted" entry rates of pests and
diseases through a pathway. APHIS bases the actual entry rate on programmed inspections and
the predicted entry rate on additional random inspections conducted through APHIS' AQIM
activities. APHIS initiated its effort to use statistical methodologies after Congress passed
GPRA in 1993. The purpose of conducting AQIM activities is to identify the pathways that pose
the most risk of introducing pests or disease to U.S. agricultural resources. APHIS works with
field personnel in performing the risk assessments

Department of Labor, 

Occupational Safety and Health Administration 


OSHA calculates and publishes national injury and illness rates. OSHA requires regulated
establishments with more than 40 employees to submit injury and illness rates annually; OSHA
conducts random inspections or compliance reviews of regulated establishments with rates
higher than two times the national average. OSHA also provides compliance assistance to
establishments out of compliance with regulations. OSHA monitors the progress of 10,000–
11,000 core establishments to measure injury and illness rates over time. OSHA selects
establishments with injury and illness rates higher than two times the national average for
random inspections.

Department of Labor, 

Employment Standards Administration, Wage and Hour Division 


WHD measures compliance of establishments with Federal labor laws in order to ensure workers
receive the wages due to them. For over a decade, WHD has used investigation-based surveys to
accurately project compliance rates in a number of low-wage industries affecting a range of
employees. Statistically valid investigation-based surveys (i.e., investigations of establishments
that are not identified by employee complaint, anecdotal evidence, or investigator experience)
provide an unbiased assessment of compliance.

The knowledge gained through statistically valid surveys helps WHD leadership make informed
decisions, in particular, in determining priority areas for directed enforcement and in gaining
insight into effective intervention tools. Survey findings resulted in national attention to specific
industries and particular vulnerable employees within those industries (e.g., youth workers, low



                                                 18

wage workers in particular industries). WHD also uses statistically valid surveys for reporting
purposes to demonstrate the program's impact on compliance.

Department of Transportation, 

Federal Motor Carrier Safety Administration 


FMCSA uses a number of performance measures for compliance reviews, roadside inspections,
and traffic enforcement. In addition to measuring a large truck-related fatality rate, FMCSA
determines compliance with individual Federal Motor Carrier Safety Regulations and individual
Hazardous Waste Regulations with randomly selected roadside inspections. Data and
information from these inspections assist FMCSA in selecting companies for on-site compliance
reviews.

FMCSA selects for inspections companies that are most likely to have crashes, based on
statistical analyses of performance statistics. It also selects companies for other reasons such as
complaints, carrier requests, etc. FMCSA quantifies risks to human safety by including
statistical methods and using the SafeStat Inspection Selection System (ISS-2). The ISS-2 is an
automated, data-driven system that measures the relative safety fitness of interstate motor
carriers using on-the-road safety, enforcement, and compliance review data. It provides relative
ranking of motor carriers based on performance. The SafeStat system analyzes the prior
30-month history of State reported crashes, roadside inspections, compliance reviews,
enforcement cases, and census data in the Motor Carrier Management Information System
database. The data is time and severity weighted. FMCSA uses the results of these analyses as a
tool in prioritizing motor carriers for compliance reviews and increased roadside inspections.

Department of Health and Human Services,
Substance Abuse and Mental Health Administration

SAMHSA requires States to conduct unannounced random inspections of tobacco retailers to
determine compliance with regulations prohibiting the sale of tobacco products to individuals
under the age of 18. States report to SAMHSA the noncompliance rates, i.e., retailers that sell
tobacco to minors. The Synar Amendment requires that compliance rates be statistically valid.
SAMHSA then calculates a national noncompliance rate by assigning weights, based on State
population, to the State noncompliance rates. Random inspections and reporting of the results is
a grant requirement under the Substance Abuse Prevention and Treatment block grants States
receive.

SAMHSA has an administrative record-keeping rule that outlines its need for data to manage its
programs. SAMHSA analyzes the data in order to measure results and adjust compliance
strategies.




                                                19

       Table B-1: Summary of Federal Regulatory Agency Programs Reviewed by OIG Evaluation Team

                             USDA APHIS                     DOL OSHA                    DOL ESA WHD                      DOT FMCSA                     HHS SAMHSA
       Agency             • Mitigate and reduce        • Prevent job-related        • Ensure workers receive       • Reduce large truck-related     • Restrict sale of tobacco
       Performance          agricultural risk            illnesses, injuries, and     the wages due them             fatality rate by 41% from        products to minors
       Goal(s)              entering into the United     fatalities                   according to Federal laws      1996 to 2008, resulting in     • Goal: Attain
                            States                                                                                   a 2008 rate of 1.65              compliance by 80% of
                                                                                                                     fatalities per 100 million       tobacco retailers, by
                                                                                                                     truck vehicle miles              reducing non
                                                                                                                     traveled                         compliance below 20%
       Agency             • Actual entry rate of       • Injury rate                • Compliance rates of          • Large truck-related fatality   • Noncompliance rate of
       Performance          pests and diseases         • Illness rate                 establishments                 rate                             retailers who sell
       Measure(s)           through a pathway                                         withholding fair wages due   • Compliance of individual         tobacco to minors
                          • Predicted entry rate of                                   to employees                   commercial motor
                            pests and diseases                                                                       vehicles and drivers with
                            through a pathway                                                                        Federal Motor Carrier
                                                                                                                     Safety Regulations and
                                                                                                                     Hazardous Materials
                                                                                                                     Regulations
       Who Conducts       • In 2003, inspection        • State inspectors in        • Federal investigators        • FMCSA provides funds to        • States conduct
       Inspections          responsibilities were        States with approved         conduct the investigation-     States through grants and        inspections of retailers
20 





                            transferred to the           State Plans; Federal         based statistical surveys      requires States to enter         selling tobacco that are
                            Department of                inspectors in all other      to determine compliance        safety and crash data            also accessible to
                            Homeland Security's          States                       with Federal labor laws        from inspections into the        minors
                            Bureau of Customs                                                                        MCMIS database                 • SAMHSA provides
                            and Border Protection                                                                  • FMCSA conducts most of           funds for inspections
                                                                                                                     the compliance reviews of        through Substance
                                                                                                                     trucking companies, but          Abuse Prevention and
                                                                                                                     some State officials are         Treatment block grants
                                                                                                                     trained to conduct
                                                                                                                     compliance reviews
       Role of the        • No State involvement       • Conduct inspections in     • States enforce their         • States conduct most of         • States implement the
       States               in the AQIM inspection       States with approved         individual State labor         the approximately                program, report data
                            or inspection                State Plans                  laws; WHD may refer            3 million yearly roadside        and results to SAMHSA
                            monitoring processes       • Feed inspection data         complaints to state labor      inspections                    • States develop rates for
                                                         into Federal data            agencies if appropriate.     • FMCSA provides funds to          known universe of
                                                         collection system                                           States through grants and        tobacco retailers and
                                                       • Develop strategic plans                                     requires States to enter         submit them to
                                                         and present annual                                          safety and crash data            SAMHSA annually
                                                         plans, as part of grant                                     from inspections into the      • States compile the
                                                         applications to OSHA                                        MCMIS database                   universe of retailers for
                                                                                                                                                      their respective States
                             USDA APHIS                      DOL OSHA                       DOL ESA WHD                     DOT FMCSA                     HHS SAMHSA
          Oversight of   • Not applicable - only       • Three meetings per             • Not applicable - only        • The National Governors        • SAMHSA monitors
          States           Federal agents enforce          year between Federal           Federal agents enforce         Association and                 State inspections
                           these laws                      OSHA and State Plan            Federal laws                   Commercial Vehicle            • Reduction in grant
                                                           States                                                        Safety Alliance developed       funds is the penalty for
                                                                                                                         uniform data standards          not meeting goals
                                                                                                                       • States use standardized       • Center for Substance
                                                                                                                         computer software               Abuse and Prevention
                                                                                                                       • Provides training to State      has an internal policy to
                                                                                                                         inspectors                      monitor the States
                                                                                                                                                         once every 3 years for
                                                                                                                                                         onsite inspections
          Regulated      • Pathways through            • Approximately 7 million        • Universe includes a          • Approximately 685,000 to      • States and territories
          Universe         which risk can enter            private workplaces in          variety of industries with     700,000 interstate trucking     compile lists of "eligible
                           into the agriculture in         the United States              low-wage hourly workers        companies                       outlets," i.e., retailers
                           the United States                                              such as agriculture,                                           that sell tobacco and
                         • Consists of 10 major                                           healthcare, garment                                            are accessible to
                           pathways, i.e., ways                                           manufacturing, grocery                                         minors
                           passengers and cargo                                           stores, nursing homes,                                       • Full universe may be
                           enter into the United                                          and restaurants                                                unknown. Rates
                           States: air carriers,                                                                                                         represent the universe
22 21 





                           trucks, cars, ships, etc.                                                                                                     of known eligible outlets
                                                                                                                                                       • In response to the GAO
                                                                                                                                                         review, Center for
                                                                                                                                                         Substance Abuse and
                                                                                                                                                         Prevention now
                                                                                                                                                         requires States to con
                                                                                                                                                         duct a study to validate
                                                                                                                                                         their retailer lists for
                                                                                                                                                         coverage and accuracy
          Types of       • AQIM is an                  • Conducts safety and            • Conducts national            • FMCSA conducts                • SAMHSA requires
          Inspections      inspectional process            health inspections             investigation-based            roadside inspections and        States to conduct
                           where random samples        •   Targeted inspections           statistical surveys to         compliance reviews              inspections from
                           are customized for              limited to establish           monitor national, regional   • FMCSA stratifies                random samples
                           each of the pathways            ments with more than           and local progress with        interstate trucking             throughout the year
                         • AQIM is conducted in            40 employees                   labor regulations              companies based on the        • Inspections use minors
                           addition to regular         •   By law OSHA must             • Conducts directed and          data on safety records into     that attempt to buy
                           inspection activities           have administratively          complaint-driven               four groups                     tobacco without any
                                                           neutral selection criteria     investigations               • The companies most likely       identification or without
                                                       •   45% of inspections are       • Approximately 75% of           to have crashes are             valid identification
                                                           unprogrammed (from             investigations are             selected for inspections      • States may conduct
                                                           complaints, referrals,         complaint-driven, 21%          and compliance reviews          additional targeted
                                                           fatalities, etc.)              focus on low-wage                                              inspections for
                                                       •   55% of inspections are         industries, and 8-19%                                          improving compliance
                                                           programmed                     focus on recidivism
                              USDA APHIS                       DOL OSHA                      DOL ESA WHD                      DOT FMCSA                      HHS SAMHSA
       Targeted           • Customized random            • Establishments in             • WHD develops targeting        • Interstate trucking            • Retail establishments
       Population           samples for each of the        selected industries with        strategies for industries/      companies most likely to         are selected from
                            pathways posing                more than 40                    companies with high             be involved in future            random samples
                            agricultural risk              employees                       levels of noncompliance         crashes based on their         • States may target
                          • AQIM Handbook                • Industries targeted             based on information from       safety statistics in the         retailers suspected of
                            outlines how to                based on injury and             surveys                         SafeStat database.               noncompliance in
                            develop targeting plans        illness rates reported        • Industries that employ a      • Companies with no data in        addition to the random
                            for each of the                by BLS                          large number of low wage        the MCMIS database               inspections required by
                            pathways                     • OMB limits OSHA's               hourly workers and low                                           SAMHSA
                                                           data collection to              compliance rates (as
                                                           establishments with             suggested by WHD
                                                           more than 40                    enforcement statistics)
                                                           employees                     • Businesses that employ
                                                         • Excludes construction           child labor
                                                           industry
       How                • Pathways prioritized         • OSHA collects Injury          • WHD analyzes information      • FMCSA ranks companies          • SAMHSA requires each
       Establishments       based on risk after              and Illness Logs from         from directed and               according to prior 30            State to prepare its own
                            initial random samples           all establishments in         complaint-driven                month compliance history         sampling plan that must
       are Selected for     help develop a first             the targeted population       investigations to identify      and severity of data             meet 10 standards/
       Inspection           level of agricultural risk   •   Establishments are            potential areas of            • SafeStat, a computer             components before
                          • Conduct additional               required to keep Injury       noncompliance                   algorithm, uses the              SAMHSA approves it
                                                                                         • Statistically valid                                            • States can have
22 





                            AQIM inspections                 and Illness Logs by law                                       compliance data collected
                            through statistical          •   Establishments with           investigation-based             by Federal and State             separate plans to
                            random sampling                  Injury/Illness rates 2 to     surveys help identify           agents and the                   inspect known violators
                                                             3 times the national          noncompliance in                crash/inspection data            in addition to the
                                                             average receive letters       populations that may not        State agencies collect to        SAMHSA required
                                                             encouraging them to           complain when there are         create compliance                random inspections
                                                             use OSHA's free               violations                      percentile rankings of
                                                             compliance assistance       • National survey findings        trucking companies
                                                             services (approximately       show that particular          • SafeStat stratifies
                                                             13,000-14,000                 sources of noncompliance        companies according to
                                                             establishments)               may be more prevalent in        safety records; the
                                                                                           some geographic
                                                         •   Inspections conducted                                         companies most likely to
                                                                                           locations                       have crashes are selected
                                                             at 175 randomly
                                                                                         • Surveys help develop            for inspections and
                                                             selected establish
                                                                                           future targeting strategies     compliance reviews
                                                             ments with low rates in
                                                             industries with high                                        • Category A and Category
                                                             rates                                                         B are the highest priorities
                                                         •   Inspections conducted                                         (represent high risk);
                                                             at a random number of                                         these companies become
                                                             establishments that do                                        priorities for full onsite
                                                             not submit the required                                       compliance reviews and
                                                             Injury and Illness Log                                        inspections

                                                                 (continued)                                                     (continued)
                             USDA APHIS                     DOL OSHA                   DOL ESA WHD                      DOT FMCSA                     HHS SAMHSA
       How                                             • Inspections conducted                                     • The Inspection Selection
       Establishments                                    at those establishments                                     System (ISS-2) uses
                                                         with a history of the                                       SafeStat results to
       are Selected for                                  most severe safety and                                      generate red, yellow, or
       Inspection                                        health violations                                           green light
                                                                                                                     recommendations to
       (continued)                                                                                                   assist States in selecting
                                                                                                                     trucks for roadside
                                                                                                                     inspections
                                                                                                                   • Companies with no data in
                                                                                                                     the SafeStat database
                                                                                                                     receive a high risk rating,
                                                                                                                     "red," rating from the ISS
                                                                                                                     2 that recommends State
                                                                                                                     agents conduct a roadside
                                                                                                                     inspection
       Collaboration      • Piggy-backed on a          • OSHA works                 • WHD works with               • FMCSA coordinates with        • Consulted with external
                            former Customs               collaboratively with         approximately 750              State licensing agencies,       statisticians to develop
                            Service contract,            States to develop            investigators from five        who can require a U.S.          the statistical sampling
                            utilizing the contracted     annual and multi-year        regions and 48 district        DOT registration number         frame
                            statistician from            strategic plans              offices                        from a company before         • SAMHSA provided
                            George Mason               • Works with BLS for         • Federal investigators          licensing its trucks            guidance documents
23 





                            University to review         data collection and          conduct the investigation-     (Approximately half the         and training materials
                            early sampling               annual estimation of         based statistical surveys      States do this now)             to States, community
                            protocols                    rates                      • External statisticians       • States conduct the              groups, and merchants
                          • Assistance from USDA       • OSHA annually                develop a statistical          majority of roadside          • SAMHSA collaborates
                            statisticians at the         receives OMB approval        methodology, draw a            inspections conducted a         with community groups
                            National Agricultural        to collect site specific     representative sample,         year                            and parents by
                            Statistics Service in        information on injuries      and conduct in-depth         • John A. Volpe Center            providing training to be
                            developing and               and accidents from           analysis of statistically      National Transportation         alert and report
                            reviewing the                establishments               valid surveys                  Systems Center (Volpe           violators
                            methodology                                                                              Center), a DOT
                          • Used external                                                                            independent research
                            statisticians for                                                                        center, was the primary
                            developing the                                                                           contractor for the SafeStat
                            sampling frames for                                                                      system
                            each pathway
                              USDA APHIS                     DOL OSHA                     DOL ESA WHD                        DOT FMCSA                       HHS SAMHSA
       Benchmarking       • APHIS focuses on            • OSHA benchmarks the         • Uses national                 • Goal to reduce large             • The goal of the
                             analyzing the reason(s)      Federal States'               investigation-based             truck-related fatality rate        program is to ensure
                             for the differences          progress against              statistical surveys to          by 41% from 1996 to                nation-wide
                             between two rates:           Federal OSHA's                monitor national, regional,     2008, resulting in a 2008          noncompliance no
                             - Actual rate that           progress                      and local progress with         rate of 1.65 fatalities per        higher than 20% by
                                pests and diseases      • OSHA tracks a core            labor regulations               100 million truck vehicle          2000, from a baseline
                                enter through a           group of 10,000-11,000      • WHD prepared baselines          miles traveled                     national rate of 42%
                                pathway, from             establishments to             for targeted industries,      • Publishes rates on its             noncompliance in 1996
                                regularly scheduled       measure injury and            and develops trends to          Website, where the public,       • SAMHSA monitors a
                                inspections               illness rates over time       show changes in                 industry, and insurance            State's performance
                             - Predicted rate, from                                     compliance                      companies can access               against the State’s own
                                additional AQIM                                                                         performance information            benchmark
                                random inspections
       Other Inspection   • AQIM is an                  • Five national emphasis      • Initially identified three    • Maintained and used              • SAMHSA also requires
       Program               inspectional process         programs: exposure to         industries and used               compliance rates                 States to annually input
                             conducted in addition        lead, exposure to silica,     national surveys to               internally since the 1980s       the coded inspection
       Components            to regular inspection        amputations, trenching        develop a compliance          •   Publishes monthly                data into SAMHSA's
                             activities                   in construction, and the      baseline: agriculture, the        updates of percentile            statistical package
                           • APHIS conducted              ship-breaking industry        garment industry, and             compliance rates on its        • From 1996 to 2000, the
                             AQIM activities with       • Approximately 145             health care industry              Website                          national average of
                             available resources          local emphasis              • The statistically valid       •   Additional weight is not         retailer non-compliance
                          • Identifying agricultural      programs                      surveys supplement                added for the size of the        decreased from 42% to
24 





                             risks is statistically                                     targeted enforcement              company; an internal             approximately 19%
                             valid rather than risk                                     programs                          process adds "a little more    • For 2006, the national
                             known from previous                                      • Uses various sources to           weight" for companies that       weighted non
                             experience                                                 identify its universe: Dun        haul hazardous waste and         compliance rate was
                           • APHIS can objectively                                      & Bradstreet and State            passengers                       10.9%
                             target the pathways                                        licensing agencies are        •   Roadside inspection data       • SAMHSA annually
                             posing the highest risk                                    used most frequently              are very accurate because        publishes
                             to agriculture; may                                                                          of conditions in the Motor       noncompliance rates
                             include previously                                                                           Carrier Safety Assistance        for each State in its
                             unknown risks                                                                                Program grant                    Website
                           • Develops rates                                                                               agreements
                             quarterly                                                                                •   FMCSA provided
                                                                                                                          approximately $185
                                                                                                                          million in 2005 to States to
                                                                                                                          conduct roadside
                                                                                                                          inspections
       Statutory/         • Supports the mission        • Occupational Safety         • Title 29 CFR 516,             • Title 49 CFR 350,                • Section 1926 of Public
       Regulatory            to mitigate and reduce       and Health Act of 1970        Records to be Kept by           Commercial Motor Carrier             Health Service Act
       Authority to          agricultural risk          • Title 29 Code of              Employers (under the Fair       Safety Assistance                    (Synar Amendment)
                             entering into the United     Federal Regulations           Labor Standards Act)            Program                          •   Title 45 CFR 96,
       Collect Data          States                       (CFR) 1904, Recording                                       • Data submission part of              Tobacco Regulation for
                                                          and Reporting                                                 grants agreements                    the Substance Abuse
                                                          Occupational Injuries                                                                              Prevention and
                                                          and Illnesses                                                                                      Treatment Block Grant
                     USDA APHIS                     DOL OSHA                   DOL ESA WHD                      DOT FMCSA                     HHS SAMHSA
       Analyses   • Uses data to identify      • OSHA analyzes the          • Federal investigators        • Volpe Research Center         • SAMHSA reviews the
                    the pathways that pose       data from BLS                conduct surveys                analyzes data and               inspection and
                    the highest risk             database                   • External statisticians         conducts studies to             compliance data States
                  • Uses data to verify that   • Collects information         develop the statistical        assess the success of the       report. They analyze
                    previously identified        from sites                   methodology, draw a            compliance strategy             data and investigate the
                    pathways posing risks      • Uses statistical             representative sample,                                         reasons for
                    to agriculture are still     samples to select sites      and conduct in depth                                           discrepancies or
                    valid                        for inspections              analysis of statistically                                      suspected problems
                                                                                                                                             with data accuracy
                                               • Used external                valid surveys
                                                 consultants for            • Independent analyses by:
                                                 evaluating results of        - University of
                                                 Site specific targeting         Tennessee
                                                 methodology                  - Mathematica
                                                                              - Boston University
       Benefits   • Evaluate intermediate      • OSHA can quantify its      • Can objectively              • FMCSA provides access         • SAMHSA can quantify
                    results and improve the      program results, e.g., a     demonstrate the results of     to current safety data and      results of enforcement
                    resources allocated to       13% decrease in injury       enforcement and                crash statistics monthly on     strategies
                    pathways                     rates when OSHA used         compliance assistance          its Website                   • From 1996 to 2000,
                  • Identify high risk           a combination of letters     strategies                   • FMCSA uses SafeStat             the national weighted
                    pathways that require        and inspections            • Can identify and pinpoint      results to establish            average of retailer non
                    additional resources                                      types and areas of             Federal priorities for on-      compliance decreased
25 





                  • Identify unknown risks                                    noncompliance                  site compliance reviews         from 42% to
                    to agricultural                                         • Identify certain             • Because FMCSA                   approximately 19%
                    resources                                                 populations of workers         publishes compliance          • For 2006, the national
                  • APHIS can plan for                                        who may not complain           rates on its Website, and       weighted non
                    situations of current                                     when their employers are       updates them monthly,           compliance rate is
                    funding and reduced                                       noncompliant                   companies have to stay          10.9%
                    funding                                                 • Provide unbiased               diligent
                                                                              assessment of compliance     • Compliance Review
                                                                                                             Assessment Model and
                                                                                                             Compliance Review
                                                                                                             Effectiveness Study
       External   • A contracted               • OSHA (in general)          • OMB's Program                • DOT OIG                       • HHS OIG (once shortly
       Reviews      statistician reviewed        reviewed by GAO four         Assessment Rating Tool       • GAO                             before and once shortly
                    the AQIM                     to five times a year         reviewed WHD's               • Volpe Center                    after the Synar
                    methodology; says the      • DOL OIG once or twice        methodologies to ensure                                        amendment was
                    concept is good            • Received all green           valid and dependable                                           implemented)
                  • USDA OIG                     ratings from OMB's           results                                                      • GAO in 2001
                                                 Program Assessment         • OMB was concerned that
                                                 Rating Tool                  WHD only focused on
                                                                              three industries; WHD has
                                                                              since expanded their
                                                                              methods into other
                                                                              industry areas
                                  USDA APHIS                     DOL OSHA                    DOL ESA WHD                       DOT FMCSA                     HHS SAMHSA
        Lessons              • Need for a champion in        • Compliance assistance    • WHD secured support             • Work collaboratively with     • Fourteen local studies
        Learned                  top management that           combined with                from top leadership and         States to collect data          showed that direct
                                 accepts/supports the          inspections was more         demonstrated                  • Require data and statistics     enforcement activities
                                 activity                      effective in reducing        improvements in                 from States as part of          with penalties
                             •   Need for local                noncompliance.               compliance, to address          grant agreements                drastically reduce
                                 managerial support            Establishments were          initial internal resistance   • Accountability and              retailer noncompliance
                                 (day-to-day champion)         not asking for               to using random samples         accuracy of data              • Perception of
                             •   If another agency             assistance when OSHA     •   Using an external third         increased because               enforcement activities
                                 becomes involved in           decreased the number         party for sampling and          external stakeholders use       is a big component of
                                 the process, learn its        of inspections in 1994       analysis can remove the         data, e.g., industry,           the Synar program
                                 culture and adapt             1995                         perception of bias              insurance companies, and      • Analyze data and verify
                             •   Data quality is vital       • For maximizing its       •   Set realistic goals to          the public                      results to check that
                             •   The planning is never
                                                               impact, OSHA enters          achieve compliance; e.g.,     • FMCSA used statistical          they are realistic and
                                                               into settlement              WHD learned that annual         methods to maximize the         accurate. Analyze the
                                 entirely complete
                                                               agreements with              industry surveys do not                                         data and adjust
                             •   Documentation of the          companies that have
                                                                                                                            limited resources to bring
                                                                                            allow time to determine         into compliance                 strategy based on the
                                 process/steps is key so       more than one                the full impact of              companies most likely to        cause of the problem
                                 the methodology is            establishment in             intervention, and               be involved in future
                                 defensible to outsiders       violation                    improvement. WHD                crashes
                             •   Private companies may                                      changed to doing surveys
                                 be able to help with                                       at 5-year intervals
                                 logic models and
                                                                                        •   Causes for violations are
                                 outcome measurement
26 





                                                                                            different in different
                                 activities
                                                                                            industries. The same
                             •   Random sampling                                            approach is not effective
                                 methodologies were                                         for everyone
                                 verified with different
                                                                                        •   Recognize different levels
                                 levels of staff to assess
                                                                                            of noncompliance, based
                                 ability for complete
                                                                                            on number of affected
                                 inspections
                                                                                            workers and the extent of
                             •   EPA's media programs                                       the noncompliance
                                 sound like "pathways"
                             •   Top management can
                                 help obtain State data
       Source: OIG analysis of interviews with, and documents from, APHIS, OSHA, WHD, FMCSA, and SAMHSA
                                                                               Appendix C

                               Selected Sources
United States Department of Agriculture, 

Animal and Plant Health Inspection Service, Plant Protection and Quarantine 


USDA APHIS. 2006. Plant Protection and Quarantine Home Page. Available at:
http://www.aphis.usda.gov/ppq/

USDA. 2002. Agricultural Quarantine Inspection Monitoring (AQIM) Handbook, 10/2006-02
Edition. Marketing and Regulatory Programs, Animal and Plant Health Inspection Service, Plant
Protection and Quarantine. Available at:
http://www.aphis.usda.gov/ppq/manuals/port/AQIM_Chapters.htm

USDA APHIS. 2005. Plant Protection and Quarantine Strategic Plan FY 2006-2009.
Available at: http://www.aphis.usda.gov/ppq/strategic-plan.html

USDA OIG. 2005. Animal and Plant Health Inspection Service: Transition and Coordination of
Border Inspection Activities Between USDA and DHS. Report No. 33601-0005-Ch. Available
at: http://www.usda.gov/oig/webdocs/33601-05-CH.pdf

Department of Labor, 

Occupational Safety and Health Administration 


OSHA. 2006. OSHA Home Page. Available at: http://www.osha.gov/

ERG. 2004. Evaluation of OSHA's Impact on Workplace Injuries and Illnesses in
Manufacturing Using Establishment-Specific Targeting of Interventions. ERG: Lexington, MA.

OSHA. 2005. OSHA Strategic Management Plan 2003-2008. Available at:
http://www.osha.gov/StratPlanPublic/index.html

Department of Labor, 

Employment Standards Administration, Wage and Hour Division 


WHD. 2006. WHD Home Page. Available at: http://www.dol.gov/esa/whd/

DOL. 2006. U.S. Department of Labor Strategic Plan FY 2006-2011. Available at:
http://www.dol.gov/_sec/stratplan/main.htm

WHD. 2005. 2005 Statistics Fact Sheet: Wage and Hour Collects $166 Million in Back Wages
for 241,000 Employees in FY 2005. Available at:
http://www.dol.gov/esa/whd/statistics/200531.htm



                                             27 

Department of Transportation, 

Federal Motor Carrier Safety Administration 


FMCSA. 2006. FMCSA Home Page. Available at: http://www.fmcsa.dot.gov/

FMCSA. 2005. FMCSA Safety Program Effectiveness Measurement: Compliance Review
Effectiveness Model—Results for Carriers with Compliance Reviews in 2002. FMCSA-RI-05
036. Available at:
http://ai.fmcsa.dot.gov/CarrierResearchResults/PDFs/CREMMay2005.pdf

FMCSA. 2005. Research and Technology 5-Year Strategic Plan (2005-2009). Available at:
http://www.fmcsa.dot.gov/facts-research/research-technology/rt-5year-strategicplan.pdf

FMCSA. 2006. Summary of Program Measures Activity. Available at:
http://ai.fmcsa.dot.gov/ProgramMeasures/Intro/ProgramMeasuresMain.asp

FMCSA. 2006. FMCSA 2006-2011 Strategic Plan, Draft. Available at:
http://www.fmcsa.dot.gov/about/what-we-do/strategy/strategic-plan.htm

GAO. 2005. Large Truck Safety: Federal Enforcement Efforts Have Been Stronger Since 2000,
but Oversight of State Grants Needs Improvement. GAO-06-156. Available at:
http://www.gao.gov/new.items/d06156.pdf

John A. Volpe Center. 2006. Measuring the FMCSA's Safety Objectives from March 2000 to
September 2004. FMCSA-RI-06-038. Prepared for FMCSA. Available at:
http://ai.fmcsa.dot.gov/CarrierResearchResults/PDFs/StrategicPlan_2006.pdf

Department of Health and Human Services,
Substance Abuse and Mental Health Administration

SAMHSA. 2006. Synar Amendment: Protecting the Nation's Youth from Nicotine Addiction.
HHS SAMHSA Center for Substance Abuse Prevention. Available at:
http://prevention.samhsa.gov/tobacco/default.aspx

SAMHSA. 2003. Synar Regulation: Sample Design Guidance. HHS SAMHSA Center for
Substance Abuse Prevention.

SAMHSA. 2006. Guide for a Synar Sampling Frame Coverage Study. HHS SAMHSA Center
for Substance Abuse Prevention. Available at:
http://download.ncadi.samhsa.gov/csap/CSAPCoverageStudyGuide-2006.pdf




                                            28 

                                                                                   Appendix D

                                Agency Response
                                         May 22, 2007

MEMORANDUM

SUBJECT:       The Office of Enforcement and Compliance Assurance's Agency Response to the
               Draft Evaluation Report: Overcoming Obstacles to Measuring Compliance:
               Practices in Selected Federal Agencies; Report No. 2006-00378

FROM:          Granta Y. Nakayama (/s/ by Catherine McCabe for Granta Y. Nakayama)

TO:            Jeffrey K. Harris
               Director for Program Evaluation, Cross-Media Issues
               Office of Inspector General

        The purpose of this memorandum is to provide the Office of Enforcement and
Compliance Assurance (OECA) response to your April 5, 2007 memorandum which transmitted
the draft version of the evaluation report entitled: Overcoming Obstacles to Measuring
Compliance: Practices in Selected Federal Agencies. We appreciate the opportunity to comment
on the draft evaluation report.

        OECA recognizes the value of examining the measurement practices of other agencies in
order to learn about approaches that might be useful to EPA's national enforcement and
compliance assurance program. In fact, several years ago OECA outreach to other regulatory
agencies resulted in identification of an approach to developing statistically-valid compliance
rates used by the U.S. Customs Service. That approach provided a methodology that combined
targeted inspections and random inspections to produce statistically-valid compliance rates.
OECA retained the consultant used by the Customs Service to develop the methodology that
OECA continues to use to produce statistically-valid rates for specific segments of the regulated
universe.

        While the current draft report identifies five other federal programs that may have
similarities to EPA's compliance programs, OECA is unable to fully assess, from the information
provided in the draft report, the applicability of these practices to OECA's needs and
requirements for producing statistically-valid compliance rates. As we have discussed, EPA's
national compliance and enforcement program is responsible, along with the states, for
maximizing compliance with 12 environmental statutes, 28 distinct programs under those
statutes, and dozens of regulatory requirements under those programs which apply in various
combinations to a universe containing millions of regulated entities.

        While the draft report acknowledges many obstacles OECA faces in measuring
compliance across the regulated universe, we do take issue with the characterization of OECA
"as resistant to conducting random inspections." OECA has in fact made conscious management


                                               29 

choices on how best to use enforcement resources. The current methodology used for producing
statistically-valid rates combines inspections targeted at facilities likely to be in violation with
inspections conducted at randomly-selected facilities to produce a representative sample of the
regulated population. Because inspection resources are finite, every random inspection
conducted means sacrificing a targeted inspection likely to identify violations. This, OECA's
challenge has and will continue to be to carefully and effectively balance its measurement
approaches with its mission of protecting public health and the environment.

      OECA acknowledges the information provided in the draft report and accepts the report
recommendations.

       Recommendation 1 directs the Assistant Administrator for OECA to "establish a plan of
action with milestones to incorporate using statistical methods to demonstrate the results of
EPA's enforcement." OECA has previously accepted this recommendation.

        In OECA's July 31, 2006 report to OMB entitled Expanding the Use of Outcome
Measurement for EPA's Office of Enforcement and Compliance Assurance, OECA made a
commitment to expand the use of statistically-valid compliance rates for specific noncompliance
patterns focused on national priorities or other important problem areas. This commitment will
entail development of an action plan.

        The plan can be completed after two distinct but related reviews already underway are
completed by OECA. The first of these is a review of the strategies for the national priorities
chosen for the FY2008-2010 planning cycle. This review is designed to make the strategies
more performance-based by establishing clear goals and performance measures to guide the
management and oversight of the national priorities. The second review is designed to revise the
current compliance objective and sub-objectives in the EPA Strategic Plan so they are focused on
national priorities and problem areas, rather than their current orientation toward program tools
such as assistance, incentives, inspections, and enforcement. A commitment to make these
revisions was made as part of OECA's July 2006 report to OMB. This plan of action will be
completed by the end of calendar year 2007.

       Recommendation 2 directs the Assistant Administrator for OECA to "coordinate with the
in-house statistical expertise available in EPA's Office of Research and Development and Office
of Environmental Information to help develop statistical models and evaluate external
proposals." OECA accepts this recommendation.

         OECA has in place a contract and funding for statistical support that we believe will be
sufficient to perform the primary tasks associated with expanding the use of statistically-valid
compliance rates. However, we will examine the level of statistical expertise and the types of
statistical services that could be provided by staff in the Office of Research and Development
and the Office of Environmental Information in order to support our efforts to develop
meaningful compliance rates.

     Thank you for the opportunity to comment. If you have any questions, you may contact
OECA's Audit Follow-up Coordinator, Gwendolyn Spriggs, on 202 564-2439.



                                                 30 

                                                                               Appendix E

                                    Distribution
Office of the Administrator
Office of General Counsel
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Environmental Information
Assistant Administrator for Research and Development
Agency Followup Official (CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for Public Affairs
Senior Advisor to the Assistant Administrator for Enforcement and Compliance Assurance
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
Audit Followup Coordinator, Office of Environmental Information
Audit Followup Coordinator, Office of Research and Development
Acting Inspector General




                                            31 

